1
           STATUTORY AND ADMINISTRATIVE
                 RESPONSIBILITIES

The Inspector General Act of 1978 (Public Law 95452), as amended, sets forth specific
requirements for semiannual reports to be made to the Secretary for transmittal to the
Congress. A selection of other statutory and administrative reporting and enforcement
responsibilities and authorities are listed below:

                       AUDIT AND MANAGEMENT REVIEW
Public Law (P.L.) 97–255   Federal Managers’ Financial Integrity Act
P.L.         97–365        Debt Collection Act of 1982
P.L.         101–576       Chief Financial Officers Act of 1990
P.L.         102–486       Energy Policy Act of 1992
P.L.         103–62        Government Performance and Results Act of 1993
P.L.         103–355       Federal Acquisition Streamlining Act of 1994
P.L.         103–356       Government Management Reform Act of 1994
P.L.         104–106       Information Technology Management Reform Act of 1996
P.L.         104–208       Federal Financial Management Improvement Act of 1996
General Accounting Office Government Auditing Standards




            CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES
Title 5                    United States Code, section 552a(4)
Title 18                   United States Code, sections on crime and criminal
                           procedures as they pertain to OIG’s oversight of departmental
                           programs and employee misconduct
Title 31                   United States Code, section 3729 et seq., the False Claims Act
                                                               ig
                                          October 1999 Semiannual Report




                                         TABLE OF CONTENTS

                                                                                                                                        Page

COMMISSION’S TOP MANAGEMENT CHALLENGES . . . . . . . . . . . . . . . . . . . . . .                                                             1
 Year 2000 Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
 Human Resource Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         2
 Performance Based Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          2
 Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            3
 Information Resources Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                            3

COMMISSION PROFILE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      5

THE OFFICE OF INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                             7

AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
 Audit Follow-up . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
 Evaluation of the Commission’s Efforts to Prepare for Sunset Reviews,
   Audit Report OIG-AR-01-99 (October 30, 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
 Review of Commission’s Implementation of Simplified Acquisition Procedures,
   Audit Report OIG-AR-02-98 (March 19, 1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      12
  Review of the Electronic Dockets Information System’s Security,
    Inspection Report OIG-IR-03-99 (April 1, 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                               12
  Evaluation of the Commission’s Non-Tax Debt and Debt Collection Practices,
    Inspection Report OIG-IR-04-99 (June 28, 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                 13
  Follow-up Review of the Commission’s Preparation for the Year 2000,
    Inspection Report OIG-IR-05-99 (July 23, 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                  14
  Review of the Commission’s Time Keeping Practices Regarding Federal Holidays,
    Inspection Report OIG-IR-06-99 (September 3, 1999) . . . . . . . . . . . . . . . . . . . . . . . .                                       15

INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           16
  Summary of Investigative Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    16
  Procurement of Economic Model . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    16
  Reimbursement of Program Functions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         17




                                                                        i
                                                              ig
                                          October 1999 Semiannual Report




                           TABLE OF CONTENTS–Continued

                                                                                                                                      Page

OTHER ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            18
 Regulatory Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      18
 Liaison Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   18
 Inspectors General Independence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    18
 General Accounting Office (GAO) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    19

REPORTING REQUIREMENTS INDEX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

TABLE 1 REPORTS WITH QUESTIONED COSTS . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

TABLE 2 REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT
 TO BETTER USE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23




                                                                      ii
                                         ig
                           October 1999 Semiannual Report




         COMMISSION’S TOP MANAGEMENT
                 CHALLENGES

This section of the semiannual report has been added in response to findings presented in
the GAO report “Views on Semiannual Reporting,” GAO/AIMD-99-203 (August 1999).
GAO found that congressional staff as well as management staff recommended that
Inspectors General semiannual reports should place additional emphasis on identifying top
management challenges and reporting on actions taken by agency management to
implement Office of Inspector General (OIG) recommendations.
Outlined below are the “Top Five Management Challenges” facing the International Trade
Commission (Commission). Through audits, inspections and other assistance, the OIG has
been pro-actively helping the Commission in addressing these challenges. OIG recent
activities relating to each management challenge are summarized below.




                                    1.
                                    Year 2000 Issues



The Commission has taken significant strides to get its infrastructure and computer
systems “Year 2000 (Y2K)-ready.” A single official, who is assisted by a Y2K Committee,
was appointed to oversee the Commission’s Y2K efforts. The Commission is actively in the
process of remediation and formulating contingency plans.
OIG activities in this area include an audit completed in March 1999, as reported in the
previous semiannual report, and a July 1999 follow-up inspection reported in this
semiannual report. OIG found in its last inspection that remediation has progressed to the
point that, barring any unforeseen obstacles, remediation will be completed several
months prior to January 1, 2000. The main challenge that the Commission faces in the
near future is to effectively educate employees and customers regarding Y2K issues. The
implementation of the Y2K contingency plans would also present a significant challenge
to the Commission should that become necessary.

                                            1
                                          ig
                           October 1999 Semiannual Report




                                 2.
                                 Human Resource Management

Human capital is the agency’s largest resource and its effective management provides a
continuous challenge for the Commission. Because of the Commission’s unique mission
and functions, many external factors affect the Commission’s workload. Additionally, 1994
amendments to the antidumping and countervailing duty laws have progressively
increased the Commission’s workload starting in 1999. In the past, historical data provided
a relatively good barometer for workload estimates. Presently, however, historical data has
become increasingly unreliable as a measure of future demands. Adequately predicting
and aligning human capital resources to address the Commission’s workload provides a
significant resource management challenge. Currently the Commission has an eight
percent vacancy rate.
OIG activity in this area includes an audit of the Commission’s efforts to prepare for sunset
reviews as reported in the previous semiannual report. Audit follow-up information
regarding this audit is provided in this semiannual report.




                             3.
                             Performance Based Management


The Commission’s initial steps in implementing performance based management have
been successful. The Commission still faces the challenge of collecting accurate outcome
data, measuring progress, and making programmatic changes. The Commission faces the
need to align the budget formulation process with its strategic plan.
Recent activity in this area includes an OIG inspection which reviewed the Commission’s
ability to report on performance measurement goals. This inspection was reported in the
previous semiannual report. Additionally, OIG has an ongoing audit of the Commission’s
budget development and allocation process.

                                             2
                                          ig
                           October 1999 Semiannual Report




                                4.
                                Financial Statements



The Commission faces a challenge in attempting to achieve an unqualified Financial
Statements opinion in light of existing and new federal requirements.
In our previous semiannual report, OIG reported on our audit of the Commission’s
Financial Statements for Fiscal Years 1998 and 1997. OIG expressed the opinion that the
statements of the financial position of the Commission as of September 30, 1998, and 1997,
present fairly, in all material respects, the financial position of the Commission. Currently
there is an ongoing audit of the Commission’s Financial Statements for fiscal years 1999
and 1998.




                             5.
                             Information Resources Management



Rapid changes in information technology present enormous opportunities for improving
business processes. The Commission faces the challenge of efficiently managing
information resources to capitalize on these opportunities. This requires that the
Commission be able to anticipate and measure the benefits afforded by information
technology solutions that also provide adequate security.
Recently, the OIG performed several inspections regarding security of information systems
as reported in the previous semiannual report and in this semiannual report. OIG is
currently conducting an audit in this area on the Commission’s compliance with the
Clinger-Cohen Act of 1996. The recommendations in this audit will be aimed at assisting
the Commission in addressing this management challenge.

                                             3
                                                                                       ig
                                                             October 1999 Semiannual Report




                                                 U.S. International Trade Commission




                                                                                     Chairman
                                                                               COMMISSION




    Office of the                                                                                Administration       Office of the               Office of        Office of
                           Operations                                       Office of
   Administrative                                   Office of the                                   Office of           General                  Inspector          Equal
                           Office of the                                    External
    Law Judges                                       Secretary                                    the Director         Counsel                    General         Employment
                             Director                                       Relations                                                                             Opportunity
                                                                         Trade Remedy
                                                                         Assistance Office

                                                                                                                                            Employee
                                                                                                                                           Development



                          Office of                                     Office of                  Office of                                                   Office of
    Office of                                      Office of                                                            Office of            Office of
                         Industries                                   Information                  Finance                                                     Facilities
   Economics                                    Investigations                                                         Personnel            Publishing
                                                                        Services                  and Budget                                                  Management




                         Office of
                       Tariff Affairs              Office of
                        and Trade               Unfair Import
                       Agreements               Investigations




Budget Committee                                                                                            Information Security Committee (INFOSEC)
   Authority: CO70-S-042, dated 5/16/95 and CO71-W-005, dated 1/27/99                                           Authority: Directive 1345.0, dated 7/31/90

                                                                                                            Labor-Management Occupational Safety and Health Committee
Directives Review Committee                                                                                 Authority: Adm. Order 98-10, dated 9/16/98, Adm. Order 99-03,
    Authority: CO71-U-004, dated 7/11/97                                                                        dated 2/5/99, and Adm. Order 99-08, dated 9/29/99

Document Imaging Oversight Committee (DIOC)                                                                 Labor-Management Partnership Council
   Authority: Adm. Order 96-06, dated 3/15/96                                                                  Authority: Adm. Order 99-05, dated 3/25/99

Executive Resources Board (ERB)                                                                             Strategic Planning Committee (SPC)
   Authority: Adm. Order 98-08, dated 8/13/98                                                                   Authority: Adm. Order 98-05, dated 3/5/98

Incentive Awards Committee (IAC)                                                                            The Year 2000 Committee (Y2K)
    Authority: Adm. Order 92-27, dated 7/2/92 and Adm. Order 97-02, dated 10/15/96                             Authority: CO71-W-006, dated 1/27/99

Information Resources Management Steering Committee (IRMSC)
    Authority: Adm. Order 94-01, dated 10/12/93

                                                                                             4
                                        ig
                          October 1999 Semiannual Report




                        COMMISSION PROFILE
                          http://www.usitc.gov

The Commission is an independent, quasi-judicial, nonpartisan Federal agency
established by Congress with broad investigative powers on matters of trade. The mission
of the Commission is twofold: administer U.S. trade remedy laws in a fair and objective
manner; and provide the President, U.S. Trade Representative, and the Congress with
independent, quality advice and information on matters of international trade and
competitiveness. Major Commission activities include:
       j Import Injury Investigations-The Commission makes determinations in a
         variety of import injury investigations, primarily antidumping and
         countervailing duty (AD/CVD) investigations concerning the effects of unfairly
         traded imports on a U.S. industry.
       j Intellectual Property-Based Investigations-The Commission adjudicates
         complaints brought by domestic industries under section 337 of the Tariff Act
         of 1930 that allege infringement of U.S. intellectual property rights and other
         unfair methods of competition by imported goods.
       j Research-The Commission’s research program consists of its probable
         economic effects investigations under section 131 of the Tariff Act of 1930;
         analysis of trade and competitiveness issues under section 332; and role as a
         “think tank” on international trade, exploring and providing independent
         assessments on a wide range of emerging trade issues.
       j Trade Information Services-The Commission’s trade information services
         include such activities as trade remedy assistance; library services; legislative
         reports; maintenance of the Harmonized Tariff Schedule; Schedule XX; U.S.
         Schedule of Services Commitments under the General Agreement on Tariffs and
         Trade/World Trade Organization; preparation of U.S. submissions to the
         Integrated Database of the World Trade Organization; and certain other
         information gathering, processing, and dissemination activities.
       j Trade Policy Support-The Commission supports the formulation of U.S. trade
         policy, providing objective input to both the Executive Branch and the Congress
         on the basis of the distinctive expertise of its staff.




                                            5
                                         ig
                           October 1999 Semiannual Report




The Commission has six Commissioners, appointed by the President and confirmed by the
Senate, who serve one term of nine years, unless appointed to fill an unexpired term. No
more than three Commissioners may be of the same political party. The current
Commissioners are Lynn M. Bragg, Marcia E. Miller, Carol T. Crawford, Jennifer A.
Hillman, Stephen Koplan and Thelma J. Askey.
The Chairman and Vice Chairman are designated by the President and serve a two-year
statutory term. The current Chairman and Vice Chairman respectively are Lynn M. Bragg
and Marcia E. Miller whose terms expire on June 17, 2000. The Chairman is responsible,
within statutory limits, for the administrative functions of the Commission.
In Fiscal Year (FY) 1999, the Commission had an appropriation of $44.4 million and a
staffing plan for 394.5 permanent positions and 24 term positions. All of its employees are
located in one building at 500 E Street, SW, Washington, DC.




                                            6
                                                ig
                                   October 1999 Semiannual Report




              THE OFFICE OF INSPECTOR GENERAL
                     http://www.usitc.gov/oig

The Commission established the OIG pursuant to the 1988 amendments to the Inspector
General Act. The Inspector General reports directly to the Chairman. The Inspector
General is responsible for directing and carrying out audits, investigations, and inspections
relating to Commission programs and operations. The Inspector General also comments
and provides recommendations on proposed legislation, regulations, and procedures as to
their economy, efficiency and effectiveness.
In FY 1999 the OIG was allocated 3.5 staff years. This provided for two full-time (Inspector
General and a staff assistant) and two part-time (attorney-advisor and an auditor)
positions.




                                Office of Inspector General: Organization
  Full-time

         Inspector General




              Staff Assistant

                                        Part-time

                                             Attorney Advisor               Auditor




The Commission also allocated $75,000 for OIG audit and review services for FY 1999.




                                                    7
                                         ig
                          October 1999 Semiannual Report




On May 29, 1999, the Inspector General Jane E. Altenhofen resigned from the Commission.
Ms. Altenhofen was first appointed Inspector General on April 17, 1989. Ms. Altenhofen
accepted a position as Inspector General at the National Labor Relations Board. On June
6, 1999, the Chairman appointed Dev Jagadesan, the OIG Attorney-Advisor, as Acting
Inspector General.




                             Jane Altenhofen, Inspector General
                               April 17, 1989 - May 29, 1999

On May 9, 1999, Judith Borek, the OIG auditor was reassigned as a special assistant to
the Director of the Office of Administration. On September 26, 1999, Harold E. Thompson
was appointed as the auditor.




                                        Judith Borek



                                             8
                                         ig
                           October 1999 Semiannual Report




                                       AUDITS
No audit reports were issued during this period.
As of September 30, 1999, ongoing audits included:
       j Review of the Commission’s Comparison of Budget Development and Allocation
         Processes;
       j Audit of the USITC Financial Statements for Fiscal Years 1999 and 1998; and
       j Review of the Commission’s Information Resources Management Function.
Pending actions on two audit reports were completed and are presented below.




                                  Audit Follow-up

Evaluation of the Commission’s Efforts to Prepare for Sunset Reviews,
OIG-AR-01-99 (October 30, 1998) http://www.usitc.gov/oig/OIG-AR-01-99.pdf. The
Uruguay Round Agreements Act, approved in late 1994, amended the antidumping and
countervailing duty laws to require the review of all outstanding antidumping and
countervailing duty orders in existence since January 1, 1995, over a three-year “transition
period” that began in July 1998 and ends in June 2001. These reviews are commonly
referred to as “Sunset Reviews.” This audit was used to evaluate the impact of the Sunset
Review provisions on the Commission’s workload, and the adequacy of the Commission’s
preparation to conduct mandated activities.
OIG found that the Sunset activity code established to record hours worked on Sunset
Reviews was improperly defined and inconsistently used. Additionally, OIG found the
Commission’s FY 1999 Budget Justification adopted a lower level of resources needed for
the Sunset Reviews, in contrast to the higher level estimated by the Budget Committee.
Two recommendations were made as a part of this report, both of which the Commission
has adopted. OIG recommended that:
       j The Commision revise the Sunset activity code used to track hours spent on
         Sunset Reviews and advise employees on its proper use; and
       j The Commission ensure that the Commission’s FY 2000 Budget Justification
         accurately reflects the Commission’s decisions for workyears and positions for
         title VII resources.

                                             9
                                                     ig
                                          October 1999 Semiannual Report




Management agreement was reached on this report on October 30, 1998.
In our last semiannual report, OIG reported that from October 11, 1998 through March 13,
1999, only four workyears were charged to the Sunset activity code in contrast to the 22
workyears adopted by the Commission for the budget justification. For the FY, 21.44
workyears were actually charged to Sunset activities.



     Agency-Wide Sunset Workyears Recorded by Quarters:
                      Fiscal Year 1999
                             120

                             105

                              90
       Number of Workyears




                              75

                              60

                              45

                              30

                              15

                               0

                                      1st Quarter   2nd Quarter   3rd Quarter     4th Quarter

                    Sunset Workyears        1.67          3.09             7.65     9.03

                    Title VII Workyears    12.07         12.92          14.39      10.22

                    Other Workyears        84.23         72.84          84.29      79.67

                    Total Workyears        97.96         88.85        106.32       98.91




                                                        10
                                       ig
                          October 1999 Semiannual Report




Review of Commission’s Implementation of Simplified Acquisition Procedures,
OIG-AR-02-98 (March 19, 1998) http://www.usitc.gov/oig/OIG-AR-02-98.pdf. The
objective of this review was twofold: (1) determine what changes the Commission made to
policies and procedures pursuant to the Federal Acquisition Streamlining Act (FASA)
concerning the use of purchase cards, micro-purchases, and small purchases; and (2)
identify ways in which the Commission could further streamline the procurement process.
OIG found that Commission guidance did not reflect revised acquisition thresholds and
simplified acquisition procedures. Also, OIG found that procurement policies did not
promote FASA streamlined processes or the use of the purchase card. Three significant
recommendations were made as a part of this report, all of which the Commission has
adopted. OIG recommended that:
      j The Commision simplify the procurement process by using bulk funding,
        eliminating unnecessary forms and approvals, using Visa checks, increasing the
        use of purchase cards, and automating procedures;
      j The Commission improve internal controls by canceling unneeded purchase
        card authority, using built-in automated purchase card controls, performing
        periodic verifications of purchase card transactions, and strengthening record
        management procedures; and
      j The Commission establish formal requirements for training cardholders (before
        issuance of purchase cards) and non-procurement staff on an ongoing basis.
Management agreement was reached on this report on March 19, 1998.
The Commission has implemented OIG recommendations by revising Directive 3601.2
Procurement Policy and Procedures issued on September 27, 1999. The Commission is also
finalizing a substantially revised ITC Purchase Card Holder’s Handbook and a new ITC
Cost Center Manager’s Handbook.




                                         11
                                          ig
                           October 1999 Semiannual Report




                                 INSPECTIONS

During this period four inspection reports were issued.
                          Review of the Electronic Dockets Information System’s
                          Security, Inspection Report, OIG-IR-03-99 (April 1, 1999)
                          http://www.usitc.gov/oig/OIG-IR-03-99.pdf. The Electronic
                          Dockets Information System (EDIS) is a system that the
                          Secretary of the Commission uses to manage the intake and
                          dissemination of Commission public and non-public documents.
                          EDIS On-Line, a component of EDIS, will allow the general
                          public to access the public documents contained on the docket via
                          the Internet, while allowing Commission employees access to
                          public and non-public documents on the docket via the
                          Commission’s Intranet. EDIS On-Line can be found at
                          http://dockets.usitc.gov.
The objective of this inspection was to identify potential security risks and to confirm that
public users are restricted to public areas of the EDIS On-Line system. OIG found that
within the limited parameters of the vulnerability assessment, external users were
properly limited to information in the public directories. However, the testing revealed
several potential security-related considerations. OIG suggested changes that would
enhance the security of EDIS On-Line. These include limiting the number of unsuccessful
authentication attempts, separating public and non-public data on separate servers,
increasing access control, upgrading software, considering the use of a commercial product
to control access to information, implementing a checking mechanism, and limiting access
to internal printers to internal users.
The Commission implemented the security enhancements immediately. Further, as a part
of an overall EDIS upgrade, some of which is related to Y2K activities, modified security
enhancements are being incorporated.




                                            12
                                         ig
                           October 1999 Semiannual Report




                                Evaluation of the Commission’s Non-Tax Debt and
                                Debt Collection Practices, OIG-IR-04-99 (June 28,
                                1999) http://www.usitc.gov/oig/OIG-IR-04-99.pdf. OIG
                                conducted a review of the Commission’s compliance with the
                                Debt Collection Improvement Act of 1996 (DCIA). This
                                review was a part of a government-wide review of non-tax
                                delinquent debt owed the United States. The objectives of
                                the government-wide audit were to determine whether the
                                reported $60 billion in non-tax delinquent debt accurately
                                represents the universe of non-tax delinquent debt and to
                                assess how much of the delinquent debt could be collected.
Further, the objectives of this review were to determine whether the Commission had
non-tax delinquent debt to report and to assess whether the delinquent debts are
collectible. OIG also evaluated the Commission’s portfolio management activities to ensure
that its practices minimize revenue loss.
OIG found that the Commission has taken some steps toward meeting the objectives put
forth by the DCIA, which are to (1) maximize collections of delinquent debts owed to the
Federal government and (2) reduce losses arising from inadequate debt management
activities. Accordingly, the Commission has issued interim Debt Collection regulations that
implement the DCIA.
The review revealed that the Commission had approximately $7,000 in salary and health
benefit overpayments to 37 employees that were not collected in a timely manner. New
procedures were implemented by the Commission to ensure that salary and health benefit
overpayments are collected as they are identified.
The review found several areas where improvements are necessary in the debt
management area. The review was based on evaluating the Commission’s most recent debt
collection which revealed that the Commission did not effectively process the collection in
accordance with DCIA or its own regulations. As a result, the Commission spent more in
resources attempting to collect the debt then the amount of the debt collected. OIG found
that the Commission’s problems in this area stem from improper implementation of its
regulations in contrast to the substantive content of the regulations. Thus, suggestions for
improvements centered on the Commission following its debt collection regulations.
Additionally, OIG in this review identified again that the recording of accounts receivable
is a recurring problem for the Commission.




                                            13
                                          ig
                           October 1999 Semiannual Report




Follow-up Review of the Commission’s Preparation for the Year 2000,
OIG-IR-05-99 (July 23, 1999) http://www.usitc.gov/oig/OIG-IR-05-99.pdf. OIG
conducted a follow-up inspection to Evaluation of the Commission’s Preparation for the
Year 2000, Audit Report OIG-AR-03-99 (February 9, 1999). In that report, OIG found that
the extent of the impact of the Y2K problem on Commission operations was not documented
or well understood. Neither of the first two phases (awareness or assessment) in addressing
the Y2K problem had been completed on a Commission-wide basis. The Commission had
not implemented an institutional approach, and overall Commission efforts to address the
Y2K problem were insufficient to ensure a reasonable level of risk to uninterrupted
operation in Y2K.
As a result of those findings, the Chairman designated the Director of Operations as the
agency official to oversee the Commission’s efforts to prepare for Y2K. The Director
assembled a Y2K Committee which reports to the Commission biweekly on progress.
The objective of this inspection was to review the progress made by the Commission in
implementing recommendations and suggestions made in Audit Report OIG-AR-03-99 and
to identify areas in which the Commission could be more proactive to minimize disruption
because of Y2K issues. OIG found that the Commission made significant progress since the
time of our audit. The Commission updated the inventory of all information systems and
completed remediation of many mission-critical components. The OIG noted that the
Commission should continue to monitor and update the inventory of systems and
components as new hardware and software are added to Commission inventories. Also, the
Commission needed to anticipate lead time necessary to complete renovation work. The
Commission completed an Action Plan with a Master Schedule of Y2K events. OIG
suggested that the current Action Plan should be used to measure actual progress versus
planned progress on tasks in order for the Y2K Committee to drive parties to closure and
more accurately predict when major Y2K-related efforts would actually be completed.
The Commission identified mission-critical processes and associated information systems.
The Commission identified “first tier functions” as those that must operate during any
potential disruption or the agency may face serious adverse consequences. The
Commission’s first tier functions are: (1) building security, (2) payroll, (3) remediation of
Y2K problems, and (4) basic communications. The Commission identified “second tier
functions” as those that are crucial to the Commission’s long-term operations, but could be
postponed in the event of a massive disruption. The Commission’s second tier functions
include investigation and research activities that fulfill the agency’s mission. Detailed
contingency planning for all first and second tier functions is substantially complete. The
Commission has also been submitting quarterly progress reports to the Office of
Management and Budget and on June 15, 1999, submitted a high-level contingency plan.

                                            14
                                         ig
                           October 1999 Semiannual Report




Review of the Commission’s Time Keeping Practices Regarding Federal
Holidays, OIG-IR-06-99 (September 3, 1999) http://www.usitc.gov/oig/
OIG-IR-06-99.pdf. This inspection reviewed the Commission’s timekeeping practices
regarding holidays for employees working Compressed Work Schedules (CWS). The OIG
evaluated whether Commission employees on CWS would have been entitled to additional
hours for holidays by applying the proper federal rules in lieu of an existing Commission
Directive and policy. The OIG found that the Commission’s Directive and resulting
timekeeping practices did not conform to federal statutes and regulations. As a result, OIG
determined each employee working a CWS was entitled to 1 to 4 hours of holiday time for
the five holidays (during the period 12/25/98-5/31/99) reviewed. In total, 142 Commission
employees were entitled to 389 additional hours as shown in the table.



                                          Findings

                                  Number of Hours of
     Number of Employees          Additional Holiday Time               Totals
          11                               1                             11
          25                               2                             50
          96                               3                            288
          10                               4                             40
         142                                                            389



The Commission is in the process of revising its Directives in this area. OIG noted that the
Commission should apply an appropriate administrative remedy to restore the hours owed
to employees as a result of the Commission’s holiday time keeping practices. OIG also
suggested that the Commission immediately follow guidance provided by 5.C.F.R.
§610.406 in calculating holiday hours for employees working CWS.
The Commission responded by immediately implementing guidance provided in 5 C.F.R §
610.406 in calculating holiday hours for employees working CWS. The Commission is
making a determination as to an appropriate remedy in restoring past hours for periods not
covered by this review.




                                            15
                                            ig
                           October 1999 Semiannual Report




                             INVESTIGATIONS

                      Summary of Investigative Activity

A summary of investigative activity is presented below.
During this reporting period, two cases were closed, both of which were open as of March
31, 1999. The closed cases involved procurement of an economic model and reimbursement
of program functions and are described below.
No new cases were initiated this reporting period.



      Case Workload                  Referrals Processed      Investigative Results
 Open (4/1/99)         2      Received                  2    Referrals for
                                                             Prosecution              0
 Initiated             0      Initiated Investigation   0
                                                             Referrals Declined
 Closed                2      Referred to                    for Prosecution          0
                              Commission                2
 Open 9/30/99          0                                     Administrative
                              Evaluated but No               Action                   2
                              Investigation
                              Initiated                 2




                      Procurement of Economic Model

OIG conducted an investigation in response to allegations regarding the Commission’s
procurement of an economic model. Among the allegations were that the contract was
improperly sole sourced, the Commission did not receive the model described in the
contract, and the relationship of the Contracting Officer’s Technical Representative
(COTR) with the contractor was improper.




                                               16
                                         ig
                           October 1999 Semiannual Report




OIG issued an investigative report on January 27, 1999. OIG found that the sole source
justification incorrectly identified the proposal as unsolicited, the contract was only
partially fulfilled in that the data provided was not in the requested format, Commission
employees may have done some work that was to be delivered as part of the contract, and
the COTR had a relationship with the main contract employee which gave the appearance
of impropriety. The possible ethics violation was referred to the Designated Agency Ethics
Official (DAEO) for review. The DAEO found a possible ethics violation. The matter was
referred to the supervisor who, based on OIG findings and the DAEO findings, intended to
give the COTR a letter of reprimand. However, the COTR resigned from employment prior
to receiving the letter of reprimand.



                 Reimbursement of Program Functions

OIG conducted an investigation to determine whether Commission employees seeking
reimbursements for expenses incurred as a result of their involvement in Equal
Employment Opportunity (EEO) related programs and activities had received disparate
treatment. OIG’s Report of Investigation was issued to the Commission on September 30,
1997.
OIG found that the Commission’s Director of EEO should be reimbursed for personal funds
spent in paying for a musical performance during “Irish-American Heritage Month.” The
Director of the Office of Finance and Budget (OFB) disagreed that this was an eligible
expense. Therefore, OIG and Director of OFB each requested a Comptroller General
decision on the reimbursement.
On July 19, 1999, the Comptroller General issued a decision stating the Commission may
reimburse the Director of EEO. On August 6, 1999, the Director of EEO was reimbursed.
The decision is also significant beyond this particular reimbursement in that the
Comptroller General clearly stated that this type of claims settlement authority resides
with the Chairman of the Commission.




                                           17
                                         ig
                           October 1999 Semiannual Report




                           OTHER ACTIVITIES

Regulatory Review
The Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), requires the OIG to review
existing and proposed legislation and regulations and to make recommendations
concerning the impact of such legislation or regulations on the economy and efficiency of
programs and operations administered by the Commission.
OIG evaluates the impact that new or revised procedures will have on the economy and
efficiency of programs and operations. OIG reviewed and commented on eight draft
internal rules. Subjects included the composing and publishing of Commission
publications, merit promotion program, attendance and leave, preparing records
management, funds control, staff research papers, procurement policy and procedures, and
mission and functions statements for the Offices of Administration, Publishing, and
Facilities Management.

Liaison Activities
The Acting Inspector General is an active member of the inspector general community. He
is a member of the Executive Council on Integrity and Efficiency (ECIE), which consists
primarily of the inspectors general at the 34 designated federal entities. He also
participates in activities sponsored by the President’s Council on Integrity and Efficiency
(PCIE), which consists primarily of the Presidentially-appointed inspectors general. The
ECIE and PCIE have identical functions and responsibilities to promote integrity and
efficiency and to detect and prevent fraud, waste, and abuse in Federal programs.

Inspectors General Independence
The United States Supreme Court, in a 5-4 vote decided the case of National Aeronautics
and Space Administration v. Federal Labor Relations Authority, Slip Op. No. 98-369 (June
17, 1999). The issue in this case was whether OIG agents are “representatives” of federal
agencies under the Federal Service Labor-Management Relations Statute (FSLMRS). The
Court held that an investigator employed in NASA’s OIG can be considered a
representative of NASA when examining a NASA employee under the FSLMRS. The
FSLMRS permits union representation at employee examinations conducted “by a
representative of the agency” if the employee believes that the examination will result in
disciplinary action and requests such representation. On July 28, 1999, the Inspector
General Community met to discuss the scope and implications of the Court’s decision. The
OIG is currently reviewing investigative policies to determine whether current OIG
policies need to be changed in light of this decision.

                                           18
                                        ig
                          October 1999 Semiannual Report




General Accounting Office (GAO)
The Inspector General Act states that each Inspector General shall give particular regard
to the activities of the Comptroller General of the United States with a view toward
avoiding duplication and ensuring effective coordination and cooperation.
GAO issued Inspectors General: Views on Semiannual Reporting (GAO/AIMD- 99-203) in
August 1999, which is directly relevant to semiannual reports issued by Inspectors
General. In that report, GAO found that for the periods reviewed, semiannual reports in
general addressed the reporting requirements of the Inspector General Act. Further, GAO
solicited the views of congressional staff on suggested improvements to semiannual
reports. Congressional staff indicated that the semiannual report should include top
management issues and additional insight into the actions being taken by management
to implement Inspector General recommendations. This semiannual report incorporates
those suggestions.
Four GAO reports were issued in which GAO previously notified the Commission that it
would be seeking the Commission’s input. The reports are:
       j International Monetary Fund: Trade             Policies   of   IMF   Borrowers
         (GAO/NSIAD/GGD-99-174), June 22, 1999;
       j International Monetary Fund: Approach Used to Establish and Monitor
         Conditions For Financial Assistance (GAO/GGD/NSIAD-99-168), June 22,
         1999;
       j Fresh Produce: Potential Consequences of Country-of-Origin Labeling,
         (GAO/T-RCED-99-112), April 21, 1999; and
       j Audit of Governmentwide Financial Statements, (GAO-AMID-99-130), March
         31, 1999.
GAO notified the Commission that it would be conducting a review to provide information
to the Chairman of the House Committee on Ways and Means, Subcommittee on Trade
regarding the World Trade Organization Ministerial meeting taking place in November/
December 1999.




                                          19
            ig
October 1999 Semiannual Report




   This page was intentionally
           left blank.




              20
                                             ig
                             October 1999 Semiannual Report




             REPORTING REQUIREMENTS INDEX

The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports.
CITATION           REPORTING REQUIREMENTS                                           PAGE
Section 4(a)(2)    Recommendations concerning the impact of such legislation          18
                   or regulations on the economy and efficiency in the
                   administration of programs and operations administered or
                   financed by the Commission
Section 5(a)(1)    Description of significant problems, abuses, and deficiencies    None
                   relating to the administration of programs and operations
Section 5(a)(2)    Description of the recommendations for corrective action          9Ć15
                   made with respect to significant problems, abuses, or
                   deficiencies
Section 5(a)(3)    Identification of each significant recommendation described      None
                   in previous semiannual reports on which corrective action has
                   not been completed
Section 5(a)(4)    Summary of matters referred to prosecutive authorities and         16
                   the prosecutions and convictions which have resulted
Section 5(a)(5)    Summary of each report made to the head of the                   None
                   establishment under which information or assistance was
                   unreasonably refused
Section 5(a)(6)    Listing of each audit report                                      9Ć11
Section 5(a)(7)    Summary of each significant report                                9Ć15
Section 5(a)(8)    Statistical tables showing Audit ReportsĆQuestioned Costs          22
Section 5(a)(9)    Statistical tables showing Audit ReportsĆFunds Put to Better       23
                   Use
Section 5(a)(10)   Summary of each audit report issued before the                   None
                   commencement of the reporting period for which no
                   management decision has been made by the end of the
                   reporting period
Section 5(a)(11)   Description and explanation of the reasons for any significant   None
                   revised management decisions
Section 5(a)(12)   Information concerning any significant management decision       None
                   with which the Inspector General is in disagreement




                                                  21
                                        ig
                             October 1999 Semiannual Report




                        Table 1
            REPORTS WITH QUESTIONED COSTS

                                                                   Dollar Value

                                         Number of        Questioned       Unsupported
                                           Reports             Costs             Costs

A.   For which no management
     decision has been made
     by the commencement of
     the period                                 0                 0                 0

B.   Which were issued during
     the reporting period                       0                 0                 0

     Subtotals (A+B)                            0                 0                 0

C.   For which a management
     decision was made during
     the reporting period                       0                 0                 0

     (i)     Dollar value of
             disallowed costs                   0                 0                 0

     (ii)    Dollar value of costs
             not disallowed                     0                 0                 0

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                     0                 0                 0

E.   Reports for which no
     management decision
     was made within six
     months of issuance                         0                 0                 0




                                          22
                                              ig
                             October 1999 Semiannual Report




                    Table 2
     REPORTS WITH RECOMMENDATIONS THAT
          FUNDS BE PUT TO BETTER USE

                                                              Number of   Dollar
                                                                Reports    Value

A.   For which no management decision has been made
     by the commencement of the period                               0        0

B.   Which were issued during the reporting period                   0        0


             Subtotals (A+B)                                         0        0

C.   For which a management decision was made
     during the reporting period                                     0        0

     (i)     Dollar value of recommendations that were
             agreed to by management                                 0        0

     (ii)    Dollar value of recommendations that were
             not agreed to by management                             0        0

D.   For which no management decision has been made
     by the end of the reporting period                              0        0

E.   Reports for which no management decision was made
     within six months of issuance                                   0        0




                                                 23
                      ig
         October 1999 Semiannual Report




    Special thanks to the Office of Publishing
        for the production of this report:

     Keven Blake: Cover design and photography

Pamela Dyson: Report design and composition services

      Printing Operations: Reproduction service




                        24
  If you suspect Fraud, Waste, Abuse, or other misconduct at the
       International Trade Commission, please contact us at:

                     IGHotline@usitc.gov
                              or
                  EthicsLine 1--800--500--0333
                              or
             http://www.usitc.gov/oig/oighot.htm

The EthicsLine is available 24 hours per day. The caller can remain
  anonymous. If you prefer, you may send written complaints to:

             U.S. International Trade Commission
                   Office of Inspector General
                            Room 515
                        500 E Street, S.W.
                     Washington, DC 20436

Federal employees are protected from reprisal under the provisions
of the Whistleblower Protection Act of 1989. For more information,
 see the MSPB publication entitled “Questions and Answers About
  Whistleblower Appeals”, which is available in the Main Library,
               the Office of Personnel, and the OIG.
